PROOF OF SERVICE

Darrel Mendez(s),
Petitioner
v.
NRZREOXLLC
Respondents
I Darrel Mendez declare on this date as required by Supreme Court Rule I have served the
enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days. The names and addresses ol
those served are as follows:
Attorneys for NRZ REO X, LLC
ZIEVE, BRODNAX & STEELE, LLP
3550 North Central Ave, Suite 625 P
hoenix, AZ 85012 Joseph Tirello, Jr. Esq.
jtirello@zbslaw.com

I declare under penalty of perjury that the foregoing is true and correct.
June 1.2,2021

1 Darrel Mendez
RECtiV
] b North 70lh Ave
11 IN
20$lenf1aJle’ ^ 85310
- itlMyopria Persona
^g|^co|Steies@gmail.com
18

a

